No. 20-5344

In the Supreme Court of the United States
CHRISTOPHER T AYLOR, P ETITIONER,
V.

I LLI

ors, R ESPONDENT .

On Petition for a Writ of Certiorari
to the Illinois Appellate Court

CERTIFICATE OF COMPLIANCE
As required by Supre me Court Rule 33. l (h), I certify t h at t he Brief in Opposition fo r
Responden t contains 6049 words, excluding th e parts of t he document t h at are
exe mpte d by Supre me Court Rule 33.l (d).
I declare under pen alty of perj ury t h at th e foregoing is true and correct.

Executed on J a nuary 7, 202 1.

ne Elinor Notz
100 West Ra ndolph Street
Ch icago, Illinois 60601
(3 12) 814-5376
jnotz@atg.state .il. us
Counsel for Respondent

